No.
In the

^npvzmz dimrt of tf|E United States

PATRICIA RODRIGUEZ,
Petitioner,
v.
LPP MORTGAGE LTD., LP,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Patricia R. Rodriguez
Rodriguez Law Group, Inc.
7220 North Rosemead Boulevard,
Suite 133
San Gabriel, CA 91775
(626) 888-5206
prod@attorneyprod.com
Petitioner Pro se

289956

0

COUNSEL PRESS

(800) 274-3321 • (800)359-6859

QUESTION PRESENTED
In the instant case, attorney Patricia Rodriguez, and
Rodriguez Law Group, Inc. were improperly sanctioned
under Rule 11. The firm zealously represented Defendant
and Counterclaimant David W. Gates (Gates) and made
credible arguments by analogy to existing law in the
counter claim. However, the end result lead to an award
of attorney fees in the amount of $17,474.50, jointly and
severally, as a sanction Gates and his attorney. Attorney
for Gates, believes that the counter claim filed by Gates
was not frivolous and the order for sanctions under rule
11 should be reversed in its entirety.

X

x

1. Whether rule 11 sanctions against attorney Patricia
Rodriguez and her law firm should be reversed, as it
conflicted with her duty to represent her client zealously
with credible arguments.

J

n
TABLE OF CONTENTS
Page
QUESTION PRESENTED

1

TABLE OF CONTENTS

ii

TABLE OF APPENDICES

iii

TABLE OF CITED AUTHORITIES

IV

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS

1

STATEMENT OF THE CASE

10

REASONS FOR GRANTING THE PETITION ... .12
A. Counsel for Appellant, Ms. Rodriguez Should
Not be Held Responsible For Sanctions
Under Rule 11 As The Counterclaim Was
Not Brought For an Improper Purpose...
CONCLUSION

12
19

Ill

TABLE OF APPENDICES
Page
APPENDIX A
OPINION OF THE
UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED OCTOBER 29,2018 ...........................

la

APPENDIX B — MEMORANDUM OF THE
UNITED STATES DISTRICT COURT FOR
THE CENTRAL DISTRICT OF CALIFORNIA,
DATED FEBRUARY 17,2017........................

4a

IV

TABLE OF CITED AUTHORITIES
Page
Cases
Bluev. United States Dept, ofArmy
(4th Cir. 1990) 914 F.2d 525.........

13

Brown v. Board of Ed.,
(1954) 347 U.S. 483.

13

Caro v. Smith
(1997) 59 Cal. App. 4th 725

15

Guillemin v. Stein
(2002) 104 Cal. App. 4th 156

14

Huettig & Schromm, Inc. v.
Landscape Contractors,
(9th Cir. 1986) 790 F.2d 1421

18

Hunter v. Earthgrains Co. Bakery,
(4th Cir. 2002) 281 F.3d 144.......

12,13

In re Ramsey
(Bankr. 9th Cir. 1994) 176 B.R. 183

17,18

Jackson v. Grant,
(9th Cir. 1989) 890 F.2d 118

11,18

Jesinoski v. Countrywide Home Loans, Inc.
(2015) U.S., 135 S. Ct. 790........................

17,18

V

Cited Authorities
Page
Kracht v. Perrin, Gartland & Doyle
(1990) 219 Cal. App. 3d 1019.......

15

Operating Engineers Pension Trust v. A-C Co.
(1988) 859 F.2d 1336....................................

12

Ponce v. Wells Fargo Bank,
(March 13,2018) Cal. Rptr. 3d
U.S. Bank National Assn. v. Naifeh,
(2016) 1 Cal.App.5th 767 .............

15,16
10

Statutes, Regulations, and Rules
15 U.S.C. § 1635

passim

28 U.S.C. § 1254

1

12 C.F.R. §§ 1026.17-1026.23
F.R.C.P. Rule 11

10
1,3,4,10

1
PETITION FOR WRIT OF CERTIORARI
Patricia Rodriguez, counsel for appellant in the
District Court and Ninth Circuit matter, respectfully
petitions this court for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Ninth Circuit.
OPINIONS BELOW
The Opinions of the lower courts have not been
published. The upholding of the District Court’s decision
by the Ninth Circuit is attached at Appendix (“App.”) at
1-3.
JURISDICTION
The Ninth Circuit upheld the District Court’s decision
on October 29, 2018. Ms. Rodriguez invokes this Court’s
jurisdiction under 28 U.S.C. § 1254(1), having timely filed
this petition for a writ of certiorari within ninety days of
the Ninth Circuit Court’s judgment. After having timely
filed the notice of appeal on March 17,2017 within 30 days
of the district court’s order entered on February 17,2017.
STATUTORY PROVISIONS
The Statutory Provisions directly involved in this
matter are F.R.C.P. Rule 11 as Ms. Rodriguez and
Defendant/Appellant were ordered to pay sanctions. See
Statutory Language:
(a) Signature. Every pleading, written motion, and
other paper must be signed by at least one attorney of

2

record in the attorney’s name—or by a party personally
if the party is unrepresented. The paper must state the
signer’s address, e-mail address, and telephone number.
Unless a rule or statute specifically states otherwise,
a pleading need not be verified or accompanied by an
affidavit. The court must strike an unsigned paper unless
the omission is promptly corrected after being called to
the attorney’s or party’s attention.
(b) Representations to the Court. By presenting to the
court a pleading, written motion, or other paper—whether
by signing, filing, submitting, or later advocating it—an
attorney or unrepresented party certifies that to the best
of the persqn’s knowledge, information, and belief, formed
after an inquiry reasonable under the circumstances:
(1) it is not being presented for any improper purpose,
such as to harass, cause unnecessary delay, or needlessly
increase the cost of litigation;
(2) the claims, defenses, and other legal contentions
are warranted by existing law or by a nonfrivolous
argument for extending, modifying, or reversing existing
law or for establishing new law;
(3) the factual contentions have evidentiary support
or, if specifically so identified, will likely have evidentiary
support after a reasonable opportunity for further
investigation or discovery; and
(4) the denials of factual contentions are warranted on
the evidence or, if specifically so identified, are reasonably
based on belief or a lack of information.

3

(c) Sanctions.
(1) In General. If, after notice and a reasonable
opportunity to respond, the court determines that
Rule 11(b) has been violated, the court may impose an
appropriate sanction on any attorney, law firm, or party
that violated the rule or is responsible for the violation.
Absent exceptional circumstances, a law firm must be
held jointly responsible for a violation committed by its
partner, associate, or employee.
(2) Motion for Sanctions. A motion for sanctions must
be made separately from any other motion and must
describe the specific conduct that allegedly violates Rule
11(b). The motion must be served under Rule 5, but it must
not be filed or be presented to the court if the challenged
paper, claim, defense, contention, or denial is withdrawn
or appropriately corrected within 21 days after service
or within another time the court sets. If warranted, the
court may award to the prevailing party the reasonable
expenses, including attorney’s fees, incurred for the
motion.
(3) On the Court’s Initiative. On its own, the court
may order an attorney, law firm, or party to show cause
why conduct specifically described in the order has not
violated Rule 11(b).
(4) Nature of a Sanction. A sanction imposed under
this rule must be limited to what suffices to deter
repetition of the conduct or comparable conduct by others
similarly situated. The sanction may include nonmonetary
directives; an order to pay a penalty into court; or, if
imposed on motion and warranted for effective deterrence,

4
an order directing payment to the movant of part or all of
the reasonable attorney’s fees and other expenses directly
resulting from the violation.
(5) Limitations on Monetary Sanctions. The court
must not impose a monetary sanction:
(A) against a represented party for violating Rule
11(b)(2); or
(B) on its own, unless it issued the show-cause
order under Rule 11(c)(3) before voluntary dismissal or
settlement of the claims made by or against the party that
is* or whose attorneys are, to be sanctioned.
(6) Requirements for an Order. An order imposing a
sanction must describe the sanctioned conduct and explain
the basis for the sanction.
(d) Inapplicability to Discovery. This rule does not
apply to disclosures and discovery requests, responses,
objections, and motions under Rules 26 through 37.
The Statutory Provision that is indirectly involved
is 15. U.S.C. §1635, as a Recession cause of action was
brought under this statute which ultimately lead to the
award of sanctions against Ms. Rodriguez. Federal Rulel5
U.S.C. Section 1635 reads:
(a) Disclosure of obligor’s right to rescind
Except as otherwise provided in this section, in
the case of any consumer credit transaction (including
opening or increasing the credit limit for an open end

5

credit plan) in which a security interest, including any
such interest arising by operation of law, is or will be
retained or acquired in any property which is used as
the principal dwelling of the person to whom credit is
extended, the obligor shall have the right to rescind
the transaction until midnight of the third business day
following the consummation of the transaction or the
delivery of the information and rescission forms required
under this section together with a statement containing
the material disclosures required under this subchapter,
whichever is later, by notifying the creditor, in accordance
with regulations of the Bureau, of his intention to do so.
The creditor shall clearly and conspicuously disclose, in
accordance with regulations of the Bureau, to any obligor
in a transaction subject to this section the rights of the
obligor under this section. The creditor shall also provide,
in accordance with regulations of the Bureau, appropriate
forms for the obligor to exercise his right to rescind any
transaction subject to this section.
(b) Return of money or property following rescission
When an obligor exercises his right to rescind under
subsection (a), he is not liable for any finance or other
charge, and any security interest given by the obligor,
including any such interest arising by operation of law,
becomes void upon such a rescission. Within 20 days after
receipt of a notice of rescission, the creditor shall return
to the obligor any money or property given as earnest
money, downpayment, or otherwise, and shall take any
action necessary or appropriate to reflect the termination
of any security interest created under the transaction. If
the creditor has delivered any property to the obligor, the
obligor may retain possession of it. Upon the performance

6

of the creditor’s obligations under this section, the obligor
shall tender the property to the creditor, except that if
return of the property in kind would be impracticable or
inequitable, the obligor shall tender its reasonable value. "
Tender shall be made at the location of the property or at
the residence of the obligor, at the option of the obligor.
If the creditor does not take possession of the property
within 20 days after tender by the obligor, ownership of
the property vests in the obligor without obligation on
his part to pay for it. The procedures prescribed by this
subsection shall apply except when otherwise ordered by
a court.
(c) Rebuttable presumption of delivery of required
disclosures
Notwithstanding any rule of evidence, written
acknowledgment of receipt of any disclosures required
under this subchapter by a person to whom information,
forms, and a statement is required to be given pursuant
to this section does no more than create a rebuttable
presumption of delivery thereof.
(d) Modification and waiver of rights
The Bureau may, if it finds that such action is necessary
in order to permit homeowners to meet bona fide personal
financial emergencies, prescribe regulations authorizing
the modification or waiver of any rights created under
this section to the extent and under the circumstances
set forth in those regulations.
(e) Exempted transactions; reapplication of provisions
This section does not apply to—

7

(1) a residential mortgage transaction as defined in
section 1602(w) [1] of this title;
(2) a transaction which constitutes a refinancing or
consolidation (with no new advances) of the principal
balance then due and any accrued and unpaid finance
charges of an existing extension of credit by the same
creditor secured by an interest in the same property;
(3) a transaction in which an agency of a State is the
creditor; or
(4) advances under a preexisting open end credit plan
if a security interest has already been retained or acquired
and such advances are in accordance with a previously
established credit limit for such plan.
(f) Time limit for exercise of right
An obligor’s right of rescission shall expire three
years after the date of consummation of the transaction
or upon the sale of the property, whichever occurs first,
notwithstanding the fact that the information and forms
required under this section or any other disclosures
required under this part have not been delivered to the
obligor, except that if (1) any agency empowered to enforce
the provisions of this subchapter institutes a proceeding
to enforce the provisions of this section within three years
after the date of consummation of the transaction, (2)
such agency finds a violation of this section, and (3) the
obligor’s right to rescind is based in whole or in part on
any matter involved in such proceeding, then the obligor’s
right of rescission shall expire three years after the date of
consummation of the transaction or upon the earlier sale of

8
the property, or upon the expiration of one year following
the conclusion of the proceeding, or any judicial review
or period for judicial review thereof, whichever is later.
(g) Additional relief
In any action in which it is determined that a creditor
has violated this section, in addition to rescission the
court may award relief under section 1640 of this title for
violations of this subchapter not relating to the right to
rescind.
(h) Limitation on rescission
An obligor shall have no rescission rights arising solely
from the form of written notice used by the creditor to
inform the obligor of the rights of the obligor under this
section, if the creditor provided the obligor the appropriate
form of written notice published and adopted by the
Bureau, or a comparable written notice of the rights of
the obligor, that was properly completed by the creditor,
and otherwise complied with all other requirements of
this section regarding notice.
(i) Rescission rights in foreclosure
(1) In general Notwithstanding section 1649 of this
title, and subject to the time period provided in subsection
(f), in addition to any other right of rescission available
under this section for a transaction, after the initiation
of any judicial or nonjudicial foreclosure process on the
primary dwelling of an obligor securing an extension
of credit, the obligor shall have a right to rescind the
transaction equivalent to other rescission rights provided
by this section, if—

9
(A) a mortgage broker fee is not included in the finance
charge in accordance with the laws and regulations in
effect at the time the consumer credit transaction was
consummated; or
(B) the form of notice of rescission for the transaction
is not the appropriate form of written notice published and
adopted by the Bureau or a comparable written notice,
and otherwise complied with all the requirements of this
section regarding notice.
(2) Tolerance for disclosures
Notwithstanding section 1605(f) of this title, and
subject to the time period provided in subsection (f), for
the purposes of exercising any rescission rights after
the initiation of any judicial or nonjudicial foreclosure
process on the principal dwelling of the obligor securing
an extension of credit, the disclosure of the finance charge
and other disclosures affected by any finance charge shall
be treated as being accurate for purposes of this section
if the amount disclosed as the finance charge does not
vary from the actual finance charge by more than $35 or
is greater than the amount required to be disclosed under
this subchapter.
(3) Right of recoupment under State law
Nothing in this subsection affects a consumer’s right
of rescission in recoupment under State law.
(4) Applicability

10
This subsection shall apply to all consumer credit
transactions in existence or consummated on or after
September 30,1995.
STATEMENT OF THE CASE
In the instant case, attorney Patricia Rodriguez, and
Rodriguez Law Group, Inc. were improperly sanctioned
under F.R.C.P. Rule 11 due to bringing a “counterclaim
for an improper purpose.” Ms. Rodriguez zealously
represented Defendant/Appellant and Counter claimant
David W. Gates (Gates) in the District Court and made
credible arguments by analogy to existing law in the
counterclaim. In the Counterclaim, Ms. Rodriguez,
counsel for Gates brought a recession claim under 15 U.S.C
§1635 against the Plaintiff/Respondent.
The Recession claim was brought under the Truth
in Lending Act of 1968 (TILA) 15 U.S.C §1635, which
“protects a consumer from fraud, deception, and abuse by
requiring the creditor to disclose to the consumer certain
information about the subject financing. (15 U.S.C. § 1601;
see, e.g., 12 C.F.R. §§ 1026.17-1026.23 (2016).) It generally
entitles a consumer who has secured a credit transaction
with a lien on the consumer’s principal dwelling ... to
rescind a loan transaction within three business days.
([15 U.S.C.] § 1635(a).) Moreover, the rescission period is
extended to ‘three years after the date of consummation of
the transaction or upon the sale of the property, whichever
occurs first,’ if the TILA disclosures (including notice
of the right to rescind) are not provided. ([15 U.S.C.]
§ 1635(f); see 12 C.F.R. § 1026.23(a)(3)(i) (2016).)” (U.S.
Bank National Assn. v. Naifeh (2016) 1 Cal.App.5th 767,
779-780.)

11
“This right of rescission is further explained in
Section 226.23(a)(3) of Regulation Z of the Federal
Reserve Board: [11] The consumer may exercise the
right to rescind until midnight of the third business day
following consummation, delivery of the notice [of the
right to rescind], or delivery of all material disclosures,
whichever occurs last. If the required notice or material
disclosures are not delivered, the right to rescind shall
expire S years after consummation” (,Jackson v. Grant
(9th Cir. 1989) 890 F.2d 118,120 (,Jackson)).
The conditional right to rescind is found in section
1635(f). The pertinent portion of section 1635(f) reads as
follows: “An obligor’s right of rescission shall expire three
years after the date of consummation of the transaction
or upon the sale of the property, whichever occurs first,
notwithstanding the fact that the information and forms
required under this section or any other disclosures
required under this chapter [15 USCS. §§ 1631 et seq.]
have not been delivered to the obligor ...”
Here, Gates’ loan was a qualifying transaction, and
he sought both remedies. It’s undisputed that Gates has
never received material disclosures, including his right to
rescind, allowing him to give notice of rescission within
three years of the consummation of the loan on September
29,2005. Gates argued that Washington Mutual Bank, FA,
did not agree to extend credit to Gates as of the date of
the loan on September 29,2005, but only acted as a broker
to find a lender, therefore, the identity of the true lender
was unknown and no loan transaction was “consummated.”
On or about October 17,2011, Gates exercised his right to
rescind under 15 U.S.C. §1635.

12
As the district court found, however, Gates sought
the recession remedy too late. Ms. Rodriguez holds
that the Counterclaim arguments were not frivolous or
sanctionable and were relied by analogy on the following
legal authority found in the section below.
REASONS FOR GRANTING THE PETITION
A. Counsel for Appellant, Ms. Rodriguez Should Not
be Held Responsible For Sanctions Under Rule
11 As The Counterclaim Was Not Brought For an
Improper Purpose
It is well-established that lack of existing authority
does not render a claim frivolous. Remarkably, a claim
is not untenable even if the existing authority is directly
adverse, provided there is a tenable basis to argue for an
extension, modification, or reversal of existing law. (See,
e.g., Rest.3d Law Governing Lawyers, § 110(1), p. 171;
Model Rules, rule 3.1.)
Instructively, this Court in Operating Engineers
Pension Trust v. A-C Co. (1988) 859 F.2d 1336, held that
“[r]ule 11 must not be construed so as to conflict with the
primary duty of an attorney to represent his or her client
zealously. Forceful representation often requires that
an attorney attempt to read a case or an agreement in
an innovative though sensible way. Our law is constantly
evolving, and effective representation sometimes compels
attorneys to take the lead in that evolution. Rule 11 must
not be turned into a bar to legal progress.” (Id. at p. 1344.)
Hunter v. Earthgrains Co. Bakery (4th Cir.2002) 281
F.3d 144 (Hunter) is a case that notoriously illustrates the
wisdom of these principles. In Hunter, a federal district

13
court in the Fourth Circuit entered summary judgment
against the plaintiffs in an employment discrimination
case on the ground that the plaintiffs were required to
arbitrate their claims. (Id. at p. 148.) The district court
went on to suspend the plaintiffs lawyer for five years as
a sanction under Rule 11 on the ground that “first and
foremost,” the lawyer had asserted a legal position on the
arbitration issue that was directly contrary to existing
Fourth Circuit precedent. (Id. at p. 150.) The district
court judge characterized the attorney’s argument as
“‘utter nonsense’” and “’paradigmatic of a frivolous legal
contention.’” (Id. at p. 153.)
Nonetheless, the Fourth Circuit Court of Appeals
reversed the sanction order. Although the appellate court
agreed that the argument advanced by the lawyer was
directly contrary to existing Fourth Circuit authority, yet,
the appellate court noted other decisions that had rejected
that position. (Hunter, supra, 281 F.3d at pp. 154.) Also,
as of the time the district court issued its sanction order,
the United States Supreme Court had, in a different case,
adopted the legal position advocated by the plaintiffs’
lawyer. (Id. at pp. 155.) Hunter court observed, “[I]f it
were forbidden to argue a position contrary to precedent,
‘the parties and counsel who in the early 1950s brought
the case of Brown v. Board of Ed., 347 U.S. 483, 74 S.Ct.
686,98 L.Ed. 873 (1954), might have been thought by some
district court to have engaged in sanctionable conduct for
pursuing their claims in the face of the contrary precedent
of Plessyv. Ferguson, 163 U.S. 537,16 S.Ct. 1138,41 L.Ed.
256 (1896). The civil rights movement might have died
aborning.’ [Citation.]” (Hunter, supra, 281 F.3d at p. 156,
quoting Blue v. United States Dept, ofArmy (4th Cir.1990)
914 F.2d 525,534; see also Cochran, Rule 11: The Road to

14
Amendment (1991) 61 Miss. L.J. 5, 9 & fns. 16,19; Stein,
Rule 11 in the Real World: How the Dynamics of Litigation
Defeat the Purpose of Imposing Attorney Fee Sanctions
for the Assertion of Frivolous Legal Arguments (1990)
132 Fed. Rules Dec. 309, 318.)
As relevant to the parties in this case, these principles
have been equally applied to California Code of Civil
Procedure section 128.7 that authorizes sanctions in
frivolous filings. In California, the trial court may
impose sanctions under Code of Civil Procedure section
128.7. The reviewing court applies an objective standard
for determining frivolity for purposes of section 128.7.
(Guillemin v. Stein (2002) 104 Cal.App.4th 156, 167
(■Guillemin).) “[T]here are basically three types of
submitted papers that warrant sanctions: factually
frivolous (not well grounded in fact); legally frivolous (not
warranted by existing law or a good faith argument for the
extension, modification, or reversal of existing law); and
papers interposed for an improper purpose. [Citations.]”
{Ibid)
It has been held that naturally, the sanction rule “must
not be construed so as to conflict with the primary duty
of an attorney to represent his or her client zealously.
Forceful representation often requires that an attorney
attempt to read a case or an agreement in an innovative
though sensible way. Our law is constantly evolving, and
effective representation sometimes compels attorneys to
take the lead in that evolution.” {Guillemin at pp. 167-168.)
Thus, a notion that an advocate may zealously protect
his or her client’s interests must not be sanctionable.
“’Lawyers in an adversarial system are free to inflict hard
blows on their opponents as part of their responsibility to

15
zealously guard the interests of their clients....’ (Caro v.
Smith (1997) 59 Cal.App.4th 725,739,69 Cal.Rptr.2d 306.)
As one authority has observed, ‘One of the most serious
threats to zealous advocacy is the imposition of sanctions
against lawyers who file pleadings or make arguments
that are deemed to be “frivolous.”’ (Freedman & Smith,
Understanding Lawyer’s Ethics (2d ed. 2002) § 4.07, p. 93.)
Attorneys fearful of a retaliatory lawsuit ‘might temper
the zealousness of their advocacy to avoid increasing the
incentive for the adversary to pursue’ such a suit. (Kracht
v. Perrin, Gartland & Doyle (1990) 219 Cal.App.3d
1019, 1028, 268 Cal.Rptr. 637 [discussing assignment of
malpractice claims to former adversaries]; see Crystal,
supra, 32 Wake Forest L.Rev. atpp. 687-688.) Moreover,
‘overuse of the charge of frivolousness would chill not only
the zeal but the creativity of lawyers who operate on the
leading edge of legal development. Even “settled” legal
questions must be open to challenge at some point, or else
the law would stultify.’ (2 Hazard & Hodes, The Law of
Lawyering (3d ed. 2010) § 27.12, p. 27-26, italics added
(Hazard & Hodes); see also 1 Mallen & Smith, supra,
§ 6:17, pp. 804-805.) ‘The law... is not immutable.
Most recently, the Third District California Court of
Appeal reversed the sanctions order under section 128.7
in Ponce v. Wells Fargo Bank (March 13,2018 Cal.Rptr.3d
—2018 WL 1281681) holding that: (1) nonfrivolous novel
argument could be made that original beneficiary was
not covered by release between trustors and purchaser
of property at trustee’s sale, and thus sanctions were not
warranted based on frivolity; (2) fact that complaint was
fourth successive complaint against original beneficiary
did not warrant sanctions based on it being presented for
purpose of harassment; and (3) as an issue of apparent first

16
impression, nonfrivolous complaint could not be presented
for improper purpose, and thus sanctions on that ground
were not warranted. {Ibid)
As mentioned above, TILA authorizes a borrower
to rescind the loan agreement and receive damages
and attorney fees. Section 1635 describes the consumer
credit transactions to which a right of rescission may
apply. Section 1640 addresses damages. The conditional
right to rescind is found in section 1635(f). The pertinent
portion of section 1635(f) reads as follows: “An obligor’s
right of rescission shall expire three years after the date
of consummation of the transaction or upon the sale of
the property, whichever occurs first, notwithstanding
the fact that the information and forms required under
this section or any other disclosures required under this
chapter [15 USCS §§ 1631 et seq.] have not been delivered
to the obligor...”
Here, the counterclaimant’s loan was a qualifying
transaction, and he sought both remedies. Its undisputed
that Defendant/Appellant has never received material
disclosures, including his right to rescind, allowing him
to give notice of rescission within three years of the
consummation of the loan on September 29, 2005. Gates
argued that Washington Mutual Bank, FA, did not agree
to extend credit to Gates as of the date of the loan on
September 29, 2005, but only acted as a broker to find
a lender, therefore, the identity of the true lender was
unknown and no loan transaction was “consummated.”
(FACC H7.) On or about October 17,2011, Gates exercised
his right to rescind under 15 U.S.C. §1635.

17
In support of Ms. Rodriguez’s counterclaim arguement
is the United States Supreme Court’s decision in Jesinoski
v. Countrywide Home Loans, Inc. (2015)---- U.S.------,
135 S.Ct. 790, 190 L.Ed.2d 650 {Jesinoski). There, the
borrowers had sent a rescission letter three years after
refinancing their home, and the lender’s successor did not
acknowledge its validity. (,Jesinoski, supra, 135 S.Ct. atp.
791.) Thereafter, about a year later— in total four years
after the transaction originating the loan—the borrowers
filed a lawsuit seeking to enforce the rescission. (Ibid.)
The federal district court and the Eighth Circuit Court of
Appeals concluded there had been no rescission because
the borrowers had not filed a lawsuit within three years
of the date of the loan’s consummation. (Ibid.)
The Supreme Court later reversed this decision,
holding that the borrower need only send the notice
of rescission, not file a lawsuit, within the three-year
period. The court explained that section 1635(a) sets forth
unequivocally how the right to rescind is to be exercised:
“It provides that a borrower ‘shall have the right to rescind
... by notifying the creditor, in accordance with regulations
of the Board, of his intention to do so’ (emphasis added).
The language leaves no doubt that rescission is effected
when the borrower notifies the creditor of his intention to
rescind. It follows that, so long as the borrower notifies
within three years after the transaction is consummated,
his rescission is timely. The statute does not also require
him to sue within three years.” (Jesinoski, supra, 135
S.Ct. at p. 792.)
Per In re Ramsey (Bankr. 9th Cir. 1994) 176 B.R. 183,
187, loan “consummated” on the date borrower signed the
promissory note and deed of trust and agreed to borrow

18
money from an identifiable lender, notwithstanding later
modification to amount financed. In Jackson v. Grant
(9th Cir. 1989) 890 F.2d 118,119, in which no lender was
identified, the three years statute was tolled.
Based on the above-noted legal authority by analogy,
Gates argued in his counterclaim that because Washington
Mutual Bank, FA, did not agree to extend credit to Gates
as of the date of the loan on September 29, 2005, but
only acted as a broker to find a lender, the identity of the
true lender was unknown and no loan transaction was
“consummated.” (FACC117; In re Ramsey, supra, 176 B.R.
at p. 187; Jackson v. Grant, supra, at pp. 120-121.) Gates
further argued that the three-year to sue deadline was
tolled for this reason as to Washington Mutual and all
its later assignees. Even if not persuasive in the district
court’s view, the argument was reasonable by analogy to
Ramsey and Jackson and was certainly not frivolous. For
the same reason, it was also not improper. Where there is
no legal or factual basis for a claim, improper purpose may
be deduced. (See Huettig & Schromm, Inc. v. Landscape
Contractors, 790 F.2d 1421,1427 (9th Cir.1986).)
Gates further explained his delay in filing the notice
of rescission. It was due to change of law following the
2015 decision in Jesinoski., supra, 135 S. Ct. 790, when he
learned that he did not have to file the lawsuit, but only
the notice within three years of consummation of the loan.
The Jesinoski decision made it clear that a obligor must
file notice within three years of the transaction as opposed
to filing the lawsuit as held previously in Beach v. Ocwen.
Therefore, attorney Patricia Rodriguez, and
Rodriguez Law Group, Inc. were improperly sanctioned

19
under Rule 11. The firm zealously represented Gates and
made credible arguments by analogy to existing law in the
counterclaim. Therefore, the counterclaim filed by Gates
was not frivolous and the order for sanctions under rule
11 should be reversed in its entirety.
CONCLUSION
For the foregoing reasons, Mr. Rodriguez respectfully
requests that the petition for a writ of certiorari be
granted.
Dated: August 26, 2019
Respectfully submitted,
Patricia R. Rodriguez
Rodriguez Law Group, Inc.
7220 North Rosemead Boulevard,
Suite 133
San Gabriel, CA 91775
(626) 888-5206
prod@attorneyprod.com
Petitioner Pro se

